LIMITED AUDIT OF THE FISCAL YEAR 2005
    FEDERAL MANAGERS’ FINANCIAL
     INTEGRITY ACT SECTION 2 AND
  SECTION 4 ASSURANCE STATEMENTS
  REPORT NUMBER: A050249/A/F/F06001
          NOVEMBER 4, 2005




                  2
                              RESULTS OF AUDIT

In reviewing those management and systems control weaknesses reported in the
FMFIA Section 2 and Section 4 Assurance Statement questionnaires as
prepared by GSA management, we noted two weaknesses that resulted in
qualified statements of FMFIA Section 2 assurance -- budgetary reporting and
contracting practices. In addition to these weaknesses, our review of audits
performed by the OIG and other external organizations identified three additional
weaknesses in the areas of Construction in Progress, reconciliations of
intragovernmental balances, and weaknesses in the management of the
development and secure operations of automated information systems.


Budgetary Reporting

The Chief Financial Officer identified GSA’s budgetary standard general ledger
accounts as an area of concern in her Fiscal Year 2005 Section 2 Assurance
Statement questionnaire. PwC has also identified budgetary reporting issues.
Since first identifying the controls over budgetary reporting as a reportable
condition in Fiscal Year 2004, PwC has continued to identify problems in this
area during Fiscal Year 2005. Specifically, during the internal control testing
phase of their Audit of GSA’s Financial Statements, PwC determined that the
controls surrounding unfilled customer orders and undelivered orders were
ineffective. As a result, GSA performed statistical sampling of its budgetary
accounts to gain comfort with the reported year-end balances. In turn, PwC will
perform further testing on these statistical samples to substantiate GSA’s
budgetary account balances. As of the date of this report, this testing is still on-
going and has not been finalized.


Contracting Practices

While GSA made significant progress in addressing contracting practices during
Fiscal Year 2005, this issue continues to warrant attention. The Regional
Administrators for the New England, Heartland, and Rocky Mountain Regions
each reported concerns over GSA’s contracting practices in their Fiscal Year
2005 FMFIA Section 2 Assurance Statement questionnaires. The OIG, through
its Fiscal Year 2005 audits performed within the Federal Technology Service’s
(FTS) Client Support Centers (CSCs) and other contracting programs, identified
issues affecting GSA’s contracting practices. These contracting issues include:
FTS contracting practices require further strengthening, potential Anti-Deficiency
Act (ADA) and Purpose Statute breaches arising from prior-year contracts, and
proposed changes to the regulations governing subcontractor costs.




                                         4
FTS Contracting Practices

The OIG’s report entitled, Compendium of Audits of Federal Technology Service
Client Support Center Controls, dated June 14, 2005, found one CSC was fully
compliant and that the other eleven regional CSCs, while not fully compliant with
procurement regulations, are “making significant progress toward being
compliant.” GSA’s newly implemented controls provide greater assurance that
future systemic breaches of contract, accounting, and appropriations law are
unlikely to reoccur. FTS has made significant progress in the implementation of
new controls governing procurement activities through programs such as the
“Get It Right” plan.

Potential Anti-Deficiency Act and Purpose Statute Breaches

As a result of the testing performed on prior-year contracts awarded by FTS
Client Support Centers, the OIG identified potential ADA and Purpose Statute
breaches. In the first instance, real property services were provided through the
Information Technology and General Supply Funds for the relocation of the Army
Material Command Headquarters, potentially in non-compliance with the Purpose
Statute. In the second instance, GSA contracted for security upgrades to the Air
Force Electronic Systems Center using funds which may have been expired.1
Finally, an overarching ADA issue was identified pertaining to the inappropriate
accounting for and misapplication of customer funds. Although weaknesses in
internal controls existed in prior periods that led to the potential ADA breaches
identified above, no new potential ADA breaches were identified during the OIG’s
testing of Fiscal Year 2005 contracts.

Proposed Changes to Regulations Governing Subcontractor Rates

The Federal Acquisition Regulation (FAR) Council is currently considering a
proposed change to FAR §52.232-7, Payments Under Time-and-Materials and
Labor-Hour Contracts, which would relax the regulations governing the payment
of subcontractors by allowing for payment of subcontract costs at the contract
fixed labor rate (prime rate) at the discretion of the Contract Officer. As some
GSA Schedules contracts cite FAR §52.232-7, the Office of the Chief Acquisition
Officer and the Federal Supply Service have proposed acquisition letters
effective for the Agency and FSS addressing the proposed change in the
regulations.

If approved, the changes to FAR §52.232-7 may have a significant effect by
lowering the value received by the Government under Schedules contracts.
Instances may occur in which the Government pays the prime contractor’s rate,
when in actuality the work is being performed by a subcontractor at a

1
  The discussion as to whether the Air Force security upgrades constitute a matter subject to
reporting under the ADA provisions currently centers on timing issues, and is subject to a formal
legal opinion.

                                                5
substantially lower rate. Also, the proposed changes may increase the risk to the
quality of work received by the Government in instances where a less qualified
subcontractor is used.


Construction in Progress

The controls over transferring substantially complete Construction in Progress
(CIP) projects continued to remain an area of concern during Fiscal Year 2005.
In May 2005, the OIG issued separate reports to the Office of the Chief Financial
Officer and the Public Buildings Service regarding the need for strengthened
controls over the CIP statistical sample adjusting journal entry as recorded in the
Federal Buildings Fund. Additionally, PwC has continued to note significant
issues with respect to the controls over transferring substantially complete CIP
projects during their audit of GSA’s Fiscal Year 2005 Financial Statements. The
CIP issue has been identified as a reportable condition in PwC’s past four
consecutive reports on GSA’s financial statements.


Reconciliations of Intragovernmental Balances

Office of Management and Budget Circular A-136, Financial Reporting
Requirements, requires agencies to report intragovernmental asset, liability, and
revenue amounts by trading partner, and Chapter 4700 of the Treasury Financial
Manual, Agency Reporting Requirements for the Financial Report of the United
States Government, requires agencies to reconcile intragovernmental balances
by trading partner. However, during their audit of GSA’s Fiscal Year 2005
Financial Statements, PwC has found that the Agency continues to face
challenges in its efforts to reconcile its non-fiduciary intragovernmental activity
and balances, and is unable to fully perform reconciliations of intragovernmental
balances with its trading partners.


Systems Issues

Systems issues continue to be identified as an overall weakness by GSA
management and audits performed by the OIG and external organizations.
During Fiscal Year 2005, these issues included: overall systems issues,
implementation of GSA Preferred, and GSA’s implementation of the Federal
Information Security Management Act.

Previously Identified Systems Issues

In Fiscal Year 2004, PwC reported that, with the exception of FSS, GSA had
taken the necessary steps to address the reportable condition regarding network
and application security controls. However, during their Fiscal Year 2005 testing,

                                         6
                 LIMITED AUDIT OF THE FISCAL YEAR 2005
                     FEDERAL MANAGERS’ FINANCIAL
                      INTEGRITY ACT SECTION 2 AND
                   SECTION 4 ASSURANCE STATEMENTS
                   REPORT NUMBER: A050249/A/F/F06001
                           NOVEMBER 4, 2005


Report Distribution                                      Copies

Acting Administrator (A)                                   3

Acting Deputy Administrator (AD)                           3

Inspector General (J)                                      1

Deputy Inspector General (JD)                              1

Assistant Inspector General for Auditing (JA)              2

Assistant Inspector General for Investigations (JI)        1

Audit Follow-Up and Evaluation Branch (BECA)               1




                                         8
